                                                                 Issue Date
                                                                              March 29, 2007
                                                                 Audit Report Number
                                                                              2007-AT-1005




 TO:         Olga I. Saez, Director, Public and Indian Housing, San Juan Field Office,
              4NPH

 FROM:
             James D. McKay, Regional Inspector General for Audit, 4AGA


 SUBJECT:    The Puerto Rico Department of Housing, San Juan, Puerto Rico,
             Did Not Effectively Administer Its Section 8 Housing Program

                                    HIGHLIGHTS

  What We Audited and Why

             As part of the U.S. Department of Housing and Urban Development (HUD),
             Office of the Inspector General’s (OIG) strategic plan, we audited the Puerto Rico
             Department of Housing (authority) Section 8 Housing Choice Voucher program.
             Our audit objectives were to determine whether Section 8 units met housing
             quality standards in accordance with HUD requirements and whether the authority
             properly determined housing assistance subsidies.

  What We Found


             Of the 66 units inspected, 63 (95 percent) did not meet minimum housing quality
             standards, and 23 of those were in material noncompliance. As a result, Section 8
             program funds were not used efficiently and effectively to provide units that were
             decent, safe, and sanitary; and the authority made housing assistance payments for
             units that did not meet standards. We estimate that over the next year, the
             authority will disburse housing assistance payments of more than $2.6 million for
             units in material noncompliance with housing quality standards if it does not
             implement adequate controls.



Table of Contents
              The authority overhoused 29 tenants and miscalculated Section 8 assistance
              because it did not have effective controls in place to ensure that its staff assigned
              the correct voucher size and calculated the correct assistance payment. As a
              result, it made overpayments and underpayments totaling $5,767.


   What We Recommend


              We recommend that the director of the Office of Public Housing require the
              authority to inspect all of the 63 units that did not meet minimum housing quality
              standards to verify that the landlords took appropriate corrective actions to make
              the units decent, safe, and sanitary. If appropriate actions were not taken, the
              authority should abate the rents or terminate the tenants’ vouchers. The director
              should also require the authority to ensure that the errors in tenant files are
              corrected and reimburse HUD $5,451 and the tenants $316 for the identified
              errors that affected the assistance payments. We also recommend that the director
              require the authority to establish and implement controls to ensure that it follows
              HUD requirements so that assistance payments are correct and to prevent an
              estimated $2.6 million from being spent on units that are in material
              noncompliance with standards.

              For each recommendation without a management decision, please respond and
              provide status reports in accordance with HUD Handbook 2000.06, REV-3.
              Please furnish us copies of any correspondence or directives issued because of the
              audit.

   Auditee’s Response


              We discussed the findings with the authority and HUD officials during the audit.
              We provided a copy of the draft report to authority officials on February 22, 2007,
              for their comments and discussed the report with the officials at the exit
              conference on March 5, 2007. The authority provided its written comments to our
              draft report on March 7, 2007. In its response, the authority generally agreed with
              the findings.

              The complete text of the authority’s response can be found in appendix B of this
              report.




Table of Contents

                                               2
                           TABLE OF CONTENTS

Background and Objectives                                                          4


Results of Audit
Finding 1: Housing Quality Standards Were Not Adequately Enforced                  5
Finding 2: Ineffective Management Controls Resulted in Overhoused Tenants and      12
           Miscalculated Assistance Payments

Scope and Methodology                                                              15


Internal Controls                                                                  18


Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               19
   B. Auditee Comments                                                             20
   C. Criteria                                                                     24
   D. Schedule of Units in Material Noncompliance with Housing Quality Standards   25
   E. Schedule of Vouchers with Miscalculated Housing Assistance Payments          26




                                           3
                       BACKGROUND AND OBJECTIVES

 The Puerto Rico Department of Housing (authority) was created by Act No. 97 of June 10, 1972.
 Through a secretary appointed by the governor, the authority is engaged in the implementation of
 the governmental policy related to the public housing. This includes, among other things, the
 acquisition, sale, lease and operation of public housing projects and land development to provide
 housing for the benefit of low income and moderate-income families. The primary source of
 funds to carry out the government’s public housing program is the federal government subsidies
 and grants.

 The authority also administers approximately 8,000 housing choice vouchers in Puerto Rico.
 The annual assistance payments and administrative fees approach $47 million. The authority is
 the largest recipient of Section 8 funds in Puerto Rico, and it is divided into nine regional offices
 throughout Puerto Rico. Tenant files are maintained at each regional office. The authority’s
 central office is located at 889 San Patricio Avenue, San Juan, Puerto Rico.

 The objectives of our audit were to determine whether the authority’s Section 8 units met
 housing quality standards in accordance with U.S. Department of Housing and Urban
 Development (HUD) requirements and whether the authority correctly determined housing
 assistance subsidies.




Table of Contents

                                                 4
                                 RESULTS OF AUDIT


 Finding 1: Housing Quality Standards Were Not Adequately
            Enforced
 The authority did not adequately enforce HUD’s housing quality standards. Of the 66 units
 inspected, 63 (95 percent) did not meet minimum housing quality standards, and 23 of those
 were in material noncompliance. This noncompliance occurred because the authority’s
 management did not implement adequate internal controls over its inspection process and did not
 have adequate procedures for conducting quality control inspections. As a result, Section 8
 program funds were not used efficiently and effectively to provide units that were decent, safe,
 and sanitary; and the authority made housing assistance payments for units that did not meet
 standards. Based on the sample, we estimate that over the next year, the authority will disburse
 housing assistance payments of more than $2.6 million for units in material noncompliance with
 housing quality standards if it does implement adequate controls.




Health and Safety Hazards
Were Predominant


               From the authority’s 2,070 program units that passed inspection between May and
               July 2006, we statistically selected 66 units for inspection. The 66 units were
               inspected to determine whether the authority ensured that its program units met
               housing quality standards. Of the 66 units, 63 (95 percent) had 386 housing
               quality standards violations. The following table lists the most frequently
               occurring violations for the 63 units.

                                             Number of       Number of Percentage of
                Type of deficiency           deficiencies      units       units
        Illumination and electrical              160            53          80
        Structure and materials                   75            33          50
        Water supply                              55            37          56
        Smoke detectors                           30            30          45
        Sanitary facilities                       24            19          28


               Additionally, 23 of the 63 failed units were in material noncompliance with
               housing quality standards. Appendix D provides details on the 23 units.




Table of Contents

                                               5
             The most prevalent deficiencies were electrical hazards, including exposed
             wiring, missing outlet covers, improper wiring of water heaters, inoperable
             outlets, and unshielded electrical wires.




              Electrical connection with exposed wires, creating an electrical
              shock hazard.




               Breaker panel with no internal fixed cover and with exposed
               electrical contacts, creating an electrical shock hazard.




Table of Contents

                                             6
              Improper wiring of water heater with exposed wire connections,
              creating an electrical shock hazard. In addition, the pressure
              relief valve has no discharge pipe. The deficiency was not
              reported by the authority during its June 1, 2006, inspection.




              Electrical outlet and surface-mounted wire inside shower stall,
              creating an electrical shock hazard. This deficiency was not
              reported by the authority during its June 16, 2006, inspection.




Table of Contents

                                            7
             We also found other health and safety hazards, including water leaks, stairs or
             porches needing handrails, deficient septic tank, and unsafe bathrooms.




              Pealing paint and serious water leak on living room ceiling.




              Raw sewage spill from defective septic tank in the back of the
              dwelling unit.




Table of Contents

                                             8
               Entrance stairs have no handrail. This deficiency was not reported
               by the authority during its May 8, 2006, inspection.




               Rusted out hole in bathroom tub, creating a cutting hazard.
               This deficiency was not reported by the authority during its
               June 12, 2006, inspection.


   The Inspection Process Was
   Inadequate
              The authority is required by HUD and its administrative plan to inspect Section 8
              units at least once a year to ensure that the properties meet minimum conditions
              for compliance with standards. HUD requires and the authority’s administrative
              plan provides minimum conditions that must exist for a unit to be considered
              decent, safe, and sanitary. Each unit must meet minimum housing quality
              standards for the entire period of tenancy.


Table of Contents
                                             9
             We found 254 deficiencies that existed at the time of the authority’s most recent
             inspection, but the inspectors did not identify or did not report them. Damage
             from water leaks, missing guardrails, and improper electrical installations were
             some of the deficiencies not reported by inspectors. Authority inspectors
             informed us that some of the deficient inspections were attributed to oversight or
             their unfamiliarity with HUD requirements. As a result, authority inspectors
             improperly passed units that did not meet the required standards.

             The authority’s quality control inspection process was also ineffective and
             inadequate. Quality control inspections were not performed across all of its
             regional offices. As a result, the authority’s reinspected sample did not represent
             a cross section of neighborhoods and inspectors as required by HUD. This
             noncompliance occurred because the authority did not establish adequate policies,
             procedural guidelines, and performance standards for conducting required quality
             control inspections.


Conclusion



             Because the authority did not implement adequate internal controls, it made
             housing assistance payments for units that did not meet housing quality standards.
             The authority did not maintain adequate controls to ensure that inspections met
             HUD requirements. Management must emphasize the importance of housing
             quality standards and implement policies and procedures which ensure that it
             complies with HUD requirements and gives tenants the opportunity to live in
             decent, safe, and sanitary conditions. By making the necessary improvements, we
             estimate that the authority will prevent more than $2.6 million in Section 8 funds
             from being spent on units that are in material noncompliance with standards.


Recommendations



             We recommend that the director of the Office of Public Housing

             1A.    Require the authority to inspect the 63 units that did not meet minimum
                    housing quality standards to verify that the owners took appropriate
                    corrective actions to make the units decent, safe, and sanitary. If
                    appropriate actions were not taken, the authority should abate the rents or
                    terminate the housing assistance payment contracts.



Table of Contents

                                             10
            1B.     Require the authority to develop and implement an internal control plan
                    which ensures that units meet housing quality standards and inspections
                    (including quality control) meet HUD requirements to prevent more than
                    $2.6 million from being spent on units that are in material noncompliance
                    with standards.

            1C.     Require the authority to perform quality control inspections in accordance
                    with HUD requirements and document the inspections and feedback
                    provided to inspectors to correct recurring inspection deficiencies noted.

            1D.     Monitor the authority’s performance in the administration of its Section 8
                    Housing Choice Voucher program. If the authority fails to improve and
                    fulfill its administrative responsibilities, consider imposing sanctions in
                    accordance with 24 CFR [Code of Federal Regulations] 982.152(d).




Table of Contents

                                            11
 Finding 2: Ineffective Management Controls Resulted in Overhoused
            Tenants and Miscalculated Assistance Payments

 The authority did not comply with HUD requirements. It overhoused 29 tenants and
 miscalculated Section 8 assistance. This noncompliance occurred because the authority did not
 have effective controls in place to ensure that its staff assigned the correct voucher size and
 calculated the correct assistance payment. As a result, it made overpayments and underpayments
 totaling $5,767.




  The Authority Established
  Subsidy Standards


               HUD requires the authority to adopt a written administrative plan that establishes
               local policies for administering the program in accordance with HUD
               requirements. The authority must comply with HUD regulations and administer
               the program in accordance with the administrative plan. It must also establish
               subsidy standards that determine the number of bedrooms needed for families of
               different size and composition. The subsidy standards must provide for the
               smallest number of bedrooms needed to house a family without overcrowding.

               The authority’s Section 8 administrative plan requires staff to assign the voucher
               size to a participant based on the established minimum and maximum number of
               persons in a household. The table below shows the authority’s subsidy standards
               during the review period.

                             Voucher Minimum number Maximum number
                              Size      of persons     of persons
                               1             1              2
                               2             2              3
                               3             3              6
                               4             4              8
                               5             5             10


  The Authority Overpaid and
  Underpaid Section 8 Assistance

               The authority overpaid assistance for tenants who resided in units larger than the
               authority’s subsidy standards allow (overhousing), and it overpaid and underpaid
               assistance due to calculation errors.



Table of Contents
                                               12
             Overhoused tenants - The authority had 450 potentially overhoused tenants out of
             the 8,108 Section 8 active tenants. We reviewed a sample of 70 vouchers of
             tenants who appeared to be overhoused to determine whether there was
             acceptable justification for issuing a voucher larger than the authority’s
             administrative plan allowed. For 41 vouchers, the authority assigned the correct
             voucher size, but it overhoused 29 tenants in our sample. The authority overpaid
             assistance totaling $3,230 to 8 of the 29 overhoused tenants. The authority did
             not overpay for the remaining 21 tenants as they either had larger vouchers than
             necessary while occupying appropriate size units or occupied larger units that cost
             less than the allowable subsidy amount.

             The authority overhoused tenants because it did not downgrade 29 vouchers at its
             annual reexamination for tenants who had experienced a change in family
             composition. During the annual reexamination, the authority’s housing
             counselors are responsible for reviewing the current family composition and
             applying the correct subsidy standards to the household. Tenant families
             experiencing a change in household size and composition during the interim that
             warrants a smaller voucher size are required to be downgraded at the next annual
             reexamination. The authority’s regional supervisors are responsible for reviewing
             all of the annual reexaminations conducted by staff. The supervisors’ review
             process was not effective because these tenants should have been identified as
             overhoused and their vouchers downgraded at the annual reexamination.

             Calculation errors - A further review of the same 70 sampled tenant files showed
             that the authority made utility allowance and payment standard errors in 21 of
             them, 13 of which resulted in overpayments and underpayments totaling $2,537.
             The authority did not overpay or underpay for the remaining eight tenants, as the
             gross rents were less than the correct payment standard. Appendix E provides
             details on the 13 tenant files.

             The authority miscalculated assistance payments because its staff did not use
             appropriate utility allowances or payment standards. A regional supervisor
             attributed the deficiencies to oversight and to belated notifications from the
             central office on changes to the fair market rents published by HUD.

Conclusion


             The authority overpaid $5,451 and underpaid $316 in housing assistance
             payments because it did not have effective controls in place to ensure that its staff
             assigned the correct voucher size and calculated the correct assistance payment.
             Management must emphasize the importance of the certification process and
             implement policies and procedures to ensure that it complies with HUD
             requirements and prevent future housing assistance overpayments.

Recommendations


Table of Contents
                                              13
                 We recommend that the director of the Office of Public Housing require the
                 authority to

                 2A.      Reimburse its program $5,451 ($3,230 in overhoused tenants and $2,221
                          in calculation errors) from nonfederal funds for the overpayment of
                          housing assistance cited in this finding.

                 2B.      Reimburse the applicable households $316 from its program funds for the
                          underpayment of housing assistance cited in this finding. 1

                 2C.      Review the remaining 380 potentially overhoused tenants, determine the
                          appropriateness of the housing assistance disbursed, and repay the Section
                          8 Housing Choice Voucher program from nonfederal funds any amounts
                          determined ineligible.

                 2D.      Implement adequate procedures and controls to ensure its calculations
                          regarding tenants’ housing assistance payments and voucher size are
                          correct as required by HUD.




1
 The authority’s administrative plan lacks procedural guidelines for dealing with the underpayment of housing
assistance to tenants.


Table of Contents
                                                       14
                             SCOPE AND METHODOLOGY


Our audit objectives were to determine whether Section 8 units met housing quality standards in
accordance with HUD requirements and whether the authority correctly determined housing
assistance subsidies. To accomplish our objectives, we did the following:

•     Reviewed applicable laws, regulations, and other HUD program requirements.

•     Reviewed the authority’s Section 8 policies, procedures, and administrative plan.

•     Interviewed HUD and authority management and staff.

•     Reviewed the authority’s latest independent public accountant report and HUD program
      monitoring reviews.

•     Obtained a download of the authority’s Section 8 housing stock for the Housing Choice
      Voucher program as of August 2, 2006. 2

•     Selected a statistical sample of units for inspection from the authority’s Section 8 housing
      stock for Housing Choice Voucher program participants as of August 2, 2006.

•     Reviewed previous authority inspection reports.

•     Inspected 66 units with authority inspectors to determine whether the units met housing
      quality standards. We performed the inspections from August 30 to September 1, 2006, and
      from October 16 to October 27, 2006.

•     Selected a sample of 70 participant files to determine whether the authority correctly
      calculated housing assistance subsidies.

We statistically selected a sample of the authority’s program units to inspect from the 2,070 units
that passed its inspections conducted from May through July 2006. We used the U.S. Army
Audit Agency’s Statistical Sampling software to calculate the sample size. Based on a
confidence level of 90 percent, a precision level of 10 percent, and an assumed error rate of 50
percent, the software returned a statistical sample of 66 units. We used Microsoft Excel software
to select a random sample from the 2,070 units and to generate 54 additional sample units to be
used as replacements if needed.

We used statistical sampling because each sampling unit is selected without bias from the audit

2
  To achieve our audit objectives, we relied in part on computer-processed data contained in the authority’s
database. Although we did not perform a detailed assessment of the reliability of the data, we did perform a
minimal level of testing and found the data to be adequate for our purposes.


    Table of Contents
                                                        15
population, thereby allowing the results to be projected to the population.

We inspected 12 of the replacement units because 12 of the primary units were no longer being
subsidized, the tenants had moved to new units, or the unit was not accessible. We selected the
replacement units in succession until the required 66 units were inspected.

Our sampling results indicated that 23 of the 63 failed units were in material noncompliance with
housing quality standards. We based our assessment on prior authority inspection reports,
tenants’ comments, and our observation and judgment of the condition of the unit during the
inspection. We judged units to be in material noncompliance with housing quality standards
because of the overall poor condition of the unit and/or because one of the fail conditions (health
and safety) was a preexisting condition that either was not identified or not reported at the time
of the authority’s last inspection and/or a violation that threatened the living conditions of the
tenants.

Projecting the results of the 23 units that were in material noncompliance with housing quality
standards to the population yields the following:

       The lower limit is 25.36 percent x 2,070 units = 524 units in material noncompliance with
       housing quality standards.

       The point estimate is 34.85 percent x 2,070 units = 722 units in material noncompliance
       with housing quality standards.

       The upper limit is 44.34 percent x 2,070 units = 917 units in material noncompliance with
       housing quality standards.

To calculate our estimate of funds to be put to better use, we determined the authority’s average
housing assistance payment for all 2,070 units as of August 2, 2006. We then multiplied the
authority’s average monthly payment per unit ($416) by the lower minimum of 524 units
determined to be materially noncompliant to arrive at a monthly estimate, which we then
annualized. Using the lower limit of the estimate of the number of units and the average monthly
housing assistance payment, we estimated that the authority will annually spend at least
$2,615,808 (524 units x $416 average monthly payment x 12 months) for units that are in
material noncompliance with housing quality standards. This estimate is presented solely to
demonstrate the annual amount of Section 8 funds that could be put to better use on decent, safe,
and sanitary housing if the authority implements our recommendations. While these benefits
would recur indefinitely, we were conservative in our approach and only included the initial year
in our estimate.




   Table of Contents

                                               16
We identified 450 potentially overhoused tenants from the 8,108 active vouchers the authority
had during our audit period. We defined an overhoused tenant voucher as any voucher that did
not have the minimum number of household members required by the authority’s payment
standards for voucher size. We reviewed the files of 70 potentially overhoused tenants to
determine whether there was acceptable justification for assigning vouchers larger than the
authority’s administrative plan allowed, and when there was no justification, we calculated the
overpayments. 3 The same sampled tenant files were also examined to determine whether the
authority properly determined the assistance amount, and when errors were found, we calculated
the overpayment or underpayment. We used nonstatistical sampling, as it was impractical to
review all 450 cases in the population. The results apply only to items selected and cannot be
projected to the universe or population.

We conducted our fieldwork from August through November 2006 at the authority’s central
offices in San Juan, Puerto Rico, and at the Bayamon, Caguas, Carolina, and San Juan regional
offices. Our audit period was from July 1, 2004, through June 30, 2006, but we expanded the
period as needed to accomplish our objectives.

We conducted the audit in accordance with generally accepted government auditing standards.




3
    Our selection was based on the tenants with an admission date after June 30, 2004.


    Table of Contents
                                                          17
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.

 Relevant Internal Controls
           We determined the following internal controls were relevant to our audit objectives:

              •   Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

              •   Safeguarding of resources – Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

                  •   The authority did not have adequate internal controls to ensure that
                      Section 8 units met housing quality standards (see finding 1).

                  •   The authority did not have adequate internal controls to detect overhoused
                      tenants and miscalculated Section 8 assistance (see finding 2).



    Table of Contents
                                              18
                                    APPENDIXES


Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

          Recommendation                                       Funds to be put
              number                   Ineligible 1/           to better use 2/

                  1B                                             $2,615,808
                  2A                      $5,451
                  2B                       ____                          316

                Totals                    $5,451                $2,616,124

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the authority implements our
     recommendations, it will cease to incur Section 8 costs for units that are not decent, safe,
     and sanitary and, instead, will expend those funds for units that meet HUD’s standards.
     Once the authority successfully improves its controls, this will be a recurring benefit.
     Our estimate reflects only the initial year of this benefit. By implementing
     recommendation 2B, funds unnecessarily paid by a tenant are returned to that household
     for a more appropriate use.




Table of Contents

                                             19
Appendix B
                     AUDITEE COMMENTS




 Table of Contents
                            20
Table of Contents
                    21
Table of Contents
                    22
                    OIG Evaluation of Auditee Comments




Table of Contents                  23
Appendix C
                                         CRITERIA


Federal Regulations at 24 [Code of Federal Regulations] 982.54(c)

The authority must administer the program in accordance with its administrative plan.

Federal Regulations at 24 CFR [Code of Federal Regulations] 982.152(d)

HUD may reduce or offset any administrative fee to the public housing authority, in the amount
determined by HUD, if the public housing authority fails to perform its administrative
responsibilities correctly or adequately under the program.

Federal Regulations at 24 [Code of Federal Regulations] 982.401(a)(3)

All program housing must meet housing quality standards performance requirements, both at
commencement of assisted occupancy and throughout the assisted tenancy.

Federal Regulations at 24 [Code of Federal Regulations] 982.402(b)(1)

The subsidy standards determined by the authority must provide for the smallest number of
bedrooms needed to house a family without overcrowding.

Federal Regulations at 24 [Code of Federal Regulations] 985.3(e)

The sample for quality control inspections is to be drawn to represent a cross section of
neighborhoods and the work of a cross section of inspectors.




     Table of Contents

                                               24
Appendix D

      SCHEDULE OF UNITS IN MATERIAL NONCOMPLIANCE
            WITH HOUSING QUALITY STANDARDS


                                                Types of violations**

     File number      Illumination        Structure         Water       Sanitary         Smoke
                           and               and            supply      facilities      detectors
                        electrical        materials
      BA-0573               9                 3               1              0               0
      BA-0429               7                 2               1              0               0
      BA-0920               3                 3               0              0               1
      CA-1269               3                 3               4              0               0
      CA-0627               4                 3               1              1               0
      SJ-0293               2                 7               4              0               0
      SJ-1231               0                 2               3              1               1
      AR-0598               3                 3               0              0               1
      AR-0776               1                 3               4              0               1
      AR-0969               4                  2              1              0               1
     BA-T9-1137             6                  1              1              0               0
     PI-CA-0096             4                  0              1              1               1
      CA-1513               3                  0              1              2               1
      CA-1339               2                  2              0              2               0
     PI-HU-0034             6                  6              2              0               1
     HU-N-0049              7                  0              1              1               0
      CG-0217               4                  0              1              1               1
      CG-0308               4                  0              0              2               1
       PC-0041              3                  0              0              1               0
      CG-0100               4                  2              1              1               0
      MA-0273               3                  6              2              0               1
       SJ-1610              4                  1              0              1               1
     CA-T9-0518             4                  0              2              0               0
**
 The table does not indicate all violations we found in the unit. We only included the most frequently occurring
and serious violations.




     Table of Contents
                                                       25
Appendix E


 SCHEDULE OF VOUCHERS WITH MISCALCULATED
       HOUSING ASSISTANCE PAYMENTS


      Tenant case number   Housing assistance   Housing assistance
                               overpaid            underpaid
      SJ-N-0017                $304
      BA-N-0201                 152
      AG-0045                                        $12
      BA-0488                   534
      AG-0194                    32
      SJ-T7-0759                485
      BA-1333                    32
      AG-0228                                          24
      CG-R-0126                  44
      SJ-0416                                         40
      PC-0462                                        240
      SJ-0399                    30
      CA-0115                   608                  ___
           Total             $2,221                 $316




 Table of Contents

                                  26
